DOE F 1325.8
(4/93)

United States Government
Department of Energy
memorandum

DATE:      MARCH 15, 1996


REPLY TO
ATTN OF:         IG-1

SUBJECT:   INFORMATION: Report on lSummary Results of the Inspection of
Issues
       Regarding the Scope of the Accident Investigation of the TRISTAN Fire
       at the Brookhaven National Laboratoryn

TO:      The Secretary
BACKGROUND:

        The subject final report is provided to inform you of our
        findings and recommendations concerning our review of issues
        regarding the scope of the accident investigation of a
        March 31, 1994, fire at the Terrific Reactor Isotope
        Separator To Analyze Nuclides (TRISTAN) experiment at the
        Department of Energy (DOE) Brookhaven National Laboratory
        (BNL), Upton, New York. The Chicago Operations Office (CH)
        Manager appointed a Type B Accident Investigation Board
        (Board) to investigate the fire. In a
        June 16, 1994, letter to the Inspector General, DOE, the CH
        Manager requested the Inspector General to look into an
        allegation by a former Board member that senior Chicago
        management consciously violated the requirements of DOE Order
        5484.1, lENVIRONMENTAL PROTECTION, SAFETY, AND HEALTH
        PROTECTION INFORMATION REPORTING REQUIREMENTS,n in attempting
        to control the investigation. The former Board member
        alleged that there was not a clear verbal agreement among the
        Board members regarding the focus of the scope of the
        investigation. He said that the Board Chairman wanted to
        focus on the physical causes of the fire, while he (the
        former Board member) believed that the Board should focus on
        the apparent management deficiencies that allowed TRISTAN to
        operate without a proper safety analysis and in violation of
        DOE orders for so many years.

        DISCUSSION:

        We concluded that the written scopes for the accident
        investigation were generally consistent with DOE Order
        5484.1 and the example scope in the DOE Accident/Incident
        Investigation Manual. We did not find evidence that senior
        managers gave explicit direction that improperly limited the
        scope of the investigation regarding management systems.
        However, we did find that the Board conducted an
        investigation and prepared a report that did not adequately
address specific management systems and organizations as a
root cause. Without a thorough root cause analysis of
specific management systems, deficiencies in the exercise of
oversight responsibilities by lupstreamn management
organizations may not be identified and corrected.

                              -2-


Based on the evidence we have reviewed, we did not conclude
that a lack of management integrity played any role in the
deficiencies in the accident investigation regarding root
cause analysis. That is, we did not conclude that senior
managers, as alleged, consciously, i.e., knowingly and
willfully, violated the provisions of DOE Order 5484.1. We
believe that the Board Chairmanms and the Board membersm
limited experience and training in accident investigation, and
thus root cause analysis, may have contributed to the Board
conducting an accident investigation that did not adequately
address specific management systems and organizations.
Further, the Board Chairman and the Board did not believe that
they should be critical of management in their investigation
report. We found evidence that we believe indicates that this
Boardms reluctance to adequately investigate management
systems as a root cause may not be an isolated case, but may
be a more general problem with DOE accident investigations
and, in particular, those conducted by field components.

Our conclusions support that the former Board member had a
valid concern that the Board was not going to adequately
investigate and report on specific management systems and
organizations as a root cause. However, we found no evidence
that DOE recognized the validity of this concern until an
Office of Environment, Safety and Health (EH) memorandum was
forwarded to CH in March 1995. The former Board memberms
valid concerns may have had more timely recognition under the
processes envisioned in the Secretaryms new initiative to
ensure appropriate review of employee concerns.

Of the seventeen recommendations included in our report, nine
were made to EH, three to the Office of Economic Impact and
Diversity (ED), two to the Office of Nuclear Energy, Science
and Technology (NE), and three to CH. We recommended, among
other things, that EH modify pertinent oversight and training
procedures and regulations, that ED review and expedite DOEms
program on employee concerns, that NE identify and review
management systems and procedures, and that CH conduct a root
cause analysis of the TRISTAN accident and ensure that future
investigation boards understand their responsibilities in
investigating and reporting management systems as a root
cause. Management generally agreed with our recommendations.




John C. Layton
      Inspector General

      Attachment

      cc:  Deputy Secretary
             Under Secretary
             Associate Deputy Secretary for Field Management
             Assistant Secretary for Environment, Safety and
      Health
             Director, Office of Economic Impact and Diversity
             Director, Office of Nuclear Energy, Science and
      Technology
             Manager, Chicago Operations Office




                       U.S. DEPARTMENT OF ENERGY
                      OFFICE OF INSPECTOR GENERAL



                               REPORT ON

      SUMMARY RESULTS OF THE INSPECTION OF ISSUES REGARDING

     THE SCOPE OF THE ACCIDENT INVESTIGATION OF THE TRISTAN

            FIRE AT THE DOE BROOKHAVEN NATIONAL LABORATORY




Report No.       DOE/IG-0386                      Office of
Inspections
Date Issued:     March 15, 1996
Washington, D.C. 20585
                             REPORT ON
      SUMMARY RESULTS OF THE INSPECTION OF ISSUES REGARDING
     THE SCOPE OF THE ACCIDENT INVESTIGATION OF THE TRISTAN
         FIRE AT THE DOE BROOKHAVEN NATIONAL LABORATORY


                           TABLE OF CONTENTS


                                                             PAGE

PREDICATION                                                             3

BACKGROUND                                                              4

RESULTS OF INSPECTION                                                   6

 WRITTEN SCOPE                                                      6
 SCOPE DIRECTION DURING THE INVESTIGATION                       6

 SCOPE OF THE INVESTIGATION CONDUCTED                           7

 APPLICABLE REGULATIONS AND PROCEDURES AND THE TRISTAN HAZARD
   CATEGORY                                                   8

 POSSIBLE CAUSES OF THE INADEQUATE INVESTIGATION OF MANAGEMENT
   SYSTEMS                                                   10

 NEED FOR ANALYSIS OF MANAGEMENT SYSTEMS                     11

 FAILURE TO RECOGNIZE VALID CONCERNS                         13

RECOMMENDATIONS                                                 14

MANAGEMENT COMMENTS                                             17




                            APPENDICES

Appendix A:   SELECTED CRITERIA REGARDING SCOPE

Appendix B: EXCERPTS FROM THE APPOINTING OFFICIALmS AND BOARD
          CHAIRMANmS SCOPE STATEMENTS
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                      OFFICE OF INSPECTIONS
                      WASHINGTON, DC 20585


                            REPORT ON
      SUMMARY RESULTS OF THE INSPECTION OF ISSUES REGARDING
     THE SCOPE OF THE ACCIDENT INVESTIGATION OF THE TRISTAN
         FIRE AT THE DOE BROOKHAVEN NATIONAL LABORATORY


This is an Office of Inspector General (OIG) report regarding
our review of concerns with the scope of the Department of
Energy's (DOE's) investigation of the March 31, 1994, fire at
the Terrific Reactor Isotope Separator To Analyze Nuclides
(TRISTAN) experiment at the DOE Brookhaven National Laboratory
(BNL), Upton, New York. Following the fire, a Type B
investigation of the fire was initiated by the Chicago
Operations Office (CH) Manager and she appointed the TRISTAN
Type B Accident Investigation Board (Board) to conduct the
investigation.

This report presents a summary of findings, conclusions, and
recommendations, as well as management comments on the report.
A more comprehensive report, from which this summary has been
taken, includes additional evidence to support our findings and
conclusions. That report uses names of individuals interviewed
and is, therefore, not a publicly available document.

This inspection was conducted in accordance with the Quality
Standards for Inspections issued by the President's Council on
Integrity and Efficiency.


PREDICATION

In a June 16, 1994, letter to the Inspector General, DOE, the CH
Manager expressed concern about issues raised in a June 13,
1994, letter by a former Board member to an Office of
Environment, Safety and Health (EH) official regarding the Type
B accident investigation of the March 31, 1994, TRISTAN fire.
In her letter, the CH Manager requested the Inspector General
look into the former Board memberms allegation that senior
Chicago management consciously violated the requirements of DOE
Order 5484.1, lENVIRONMENTAL PROTECTION, SAFETY, AND HEALTH
PROTECTION INFORMATION REPORTING REQUIREMENTS,n in attempting to
control the investigation. In the attachment to his June 13,
1994, letter to an EH official, the former Board member had
stated, among other things, that he had personally raised
concerns about the scope of the investigation to the CH Manager
and the Board Chairman of the TRISTAN Type B Accident
Investigation Board. In a signed sworn statement dated July 15,
1994, the former Board member stated that there was not a clear
verbal agreement among the Board members regarding the focus of
the scope of the investigation. He said that the Board Chairman
wanted to focus on the physical causes of the fire, while he
(the former Board member) believed that the Board should focus
on the apparent management deficiencies that allowed TRISTAN to
operate without a proper safety analysis and in violation of DOE
orders for so many years.

 We identified the following issue as the focus of our review:

     Did senior managers improperly limit the scope of the
     accident investigation of the TRISTAN fire at the
     Brookhaven National Laboratory regarding the identification
     of specific management systems and organizations as a root
     cause?

In conducting our inspection, we interviewed DOE Headquarters
and Operations Office officials and contractor officials
involved in appointing the Type B accident investigation Board
members, conducting the accident investigation, preparing the
accident investigation report, and reviewing the report. We
also reviewed applicable DOE regulations and supporting
guidelines, the report of the TRISTAN accident investigation,
written reviews and related documents regarding the TRISTAN
accident investigation report, and selected documents related to
the accident investigation.


BACKGROUND


According to the Final Occurrence Report prepared by BNL
contractor personnel, dated May 4, 1995, a fire occurred on
March 31, 1994, within a shielded cave of the TRISTAN experiment
and consumed all the available combustible material. Several
individuals received contamination either on their skin or
clothing. All of the individuals were decontaminated or
subsequently found to be clean. Although there was a release
from the building stack, the effect of the release of
radioactive material to the environment was negligible. The BNL
Site Emergency Plan was activated, which resulted in the fire
being categorized as an emergency. The BNL Local Emergency
Coordinator notified DOE Headquarters, New York State, and
Suffolk County officials that a fire had occurred.

The TRISTAN Type B Accident Investigation Board consisted of the
Chairman, five Board members, and four advisors. The Board
convened for the first time at BNL on April 6, 1994. An
appointment letter was signed by the CH Manager on April 11,
1994. The former Board member participated in the investigation
for ten days and requested dismissal from the Board on April 15,
1994. He stated that he left the Board because of personal
reasons and differences with the Board Chairman regarding the
scope of the accident investigation. The former Board member
described these concerns in a June 13, 1994, letter to an EH
official, which we briefly discussed in the PREDICATION section.

By memorandum dated May 20, 1994, the CH Manager provided the
Assistant Secretary for Environment, Safety and Health a copy of
the TRISTAN accident investigation report, titled lTYPE B
INVESTIGATION OF THE MARCH 31, 1994 FIRE AND CONTAMINATION AT
THE TRISTAN EXPERIMENT, HIGH FLUX BEAM REACTOR BROOKHAVEN
NATIONAL LABORATORY UPTON, NY.n

The issue we identified above as the focus of our review uses
the term lroot cause.n Determining the root cause of the
accident is the primary purpose of an accident investigation.
We found that our understanding of the need for determining the
root cause was facilitated by lROOT CAUSE ANALYSIS GUIDANCE
DOCUMENT (DOE-NE-STD-1004-92).n Based on our reading of this
document, we developed an analogy of an airplane accident that
we found helpful in our understanding of the concept of root
cause analysis. If, for example, an investigation of an
airplane crash concluded that a failed bolt was the cause of the
crash, this would be inadequate as a root cause and would not
answer the root cause question of why the bolt had failed. The
bolt could have failed, for example, because of inadequate
maintenance procedures or regulations, inadequate maintenance
management, inadequate quality control inspection of
new/replacement bolts for substandard or counterfeit parts, or
inadequate specification of procurement requirements. Unless
the root cause is identified and corrected, other airplanes may
crash for the same reason. Also, the fact that the crashed
airplane will not be operated anymore, or even the fact that
that model of airplane will not be operated anymore, would not
eliminate the need to identify the root cause of the accident.
The root cause may be a fundamental problem that could impact
other airplanes or other airplane models.


RESULTS OF INSPECTION

     Did senior managers improperly limit the scope of the
     accident investigation of the TRISTAN fire at the
     Brookhaven National Laboratory regarding the identification
     of specific management systems and organizations as a root
     cause?

We divided this overall issue into three sub-issues. We
reviewed (1) whether the specified written scope for the
investigation was improperly limited regarding the
identification of specific management systems and organizations
as a root cause,
(2) whether the scope direction provided by senior managers
during the investigation improperly limited the identification
of specific management systems and organizations as a root
cause, and (3) whether the scope of the investigation that was
conducted by the Board resulted in an adequate investigation and
report regarding specific management systems and organizations
as a root cause.

Written Scope

Due to a delay in the completion of the appointment letter,
which described the scope of the investigation, the Board
Chairman created a written scope. The appointment letter,
signed by the appointing official (the CH Manager) on April 11,
1994, arrived at BNL on April 12, 1994, six days after the Board
convened on April 6, 1994. We concluded that the written scopes
for the investigation were generally consistent with DOE Order
5484.1 and the example scope in the DOE Accident/Incident
Investigation Manual (A/I Manual). The former Board member told
us that he had no problem with the scope in the appointing
officialms letter and that the Board Chairmanms scope was
sufficiently broad to conduct the investigation. Also, each of
the Board members told us that they believed that the Board
Chairmanms scope statement was adequate to perform the
investigation. Appendix A presents selected criteria for
evaluating the adequacy of the scope of the investigation in
regard to management systems and Appendix B contains excerpts
from the written scopes.

Scope Direction During the Investigation

Regarding the scope direction provided by management officials
during the investigation, we did not find evidence that senior
managers gave explicit direction that improperly limited the
scope of the investigation regarding management systems. More
specifically, we did not find evidence that the CH Manager gave
explicit direction to the former Board member that improperly
limited the scope of the investigation. However, the CH Manager
said that the former Board member had told her that there would
be aspects that he believed that the Office of Environment,
Safety and Health (EH) would want covered that were beyond what
the investigation was going to cover. Although these aspects
included management systems, the former Board member told us
that he did not discuss specific issues with the CH Manager .
The CH Manager told us that she told the former Board member to
submit questions or concerns that were outside the scope of the
investigation to Brookhaven Area Office (BHO, now the Brookhaven
Group Office) officials for review.

Regarding the Board Chairman, the former Board member had
identified four actions by the Board Chairman that he believed
were inappropriate limitations of the scope. These actions
included: taking a week long break during the middle of the
investigation, establishing a very tight schedule for writing
the report, screening the former Board memberms written
questions to ensure they were within the scope of the
investigation, and, during at least one interview, stopping the
former Board member from asking questions because the Board
Chairman considered the questions to be outside the scope of the
investigation. We did not find evidence that the one week break
or the schedule resulted in the Board members not being able to
complete work on issues they wanted to pursue. We found that
the former Board member had not submitted any questions to the
Board Chairman. Further, when interviewed, none of the other
Board members stated any concern regarding screening of
questions. We did, however, find one occasion when the former
Board member was interrupted during an interview, stopping his
questions. We were told, however, that this was after he had
been asking his questions for a period of time.
We did not find evidence that the Board Chairman gave explicit
direction to the former Board member that improperly limited the
scope of the investigation. However, we did conclude that the
Board Chairmanms view of the objectives of the accident
investigation did not encourage the identification and analysis
by the Board of specific management systems and organizations as
a root cause of the accident. The Board Chairman believed the
accident investigation report should not identify or name
specific management organizations because this would be
inappropriately laying blame or finding fault.

Scope of the Investigation Conducted

Although we did not find evidence that senior managers gave
explicit direction that improperly limited the scope of the
investigation regarding management systems, we did find evidence
that there was a lack of direction to the Board by senior
managers as well as a reluctance by Board members to identify
and report specific management systems and organizations as a
root cause. We believe that this resulted in the Board
conducting an investigation and preparing a report that did not
adequately address specific management systems and organizations
as a root cause. The Board reported the root cause of the
accident as lthe lack of a comprehensive safety review of
TRISTAN, commensurate with the level of hazards.n However, this
reported root cause did not answer the root cause lwhy questionn
of why TRISTAN did not have a comprehensive safety review.

Without a thorough root cause analysis of specific management
systems, deficiencies in the exercise of oversight
responsibilities by lupstreamn management organizations may not
be identified and corrected. The following statement from the
review by Pacific Northwest Laboratories (PNL) of the TRISTAN
Accident Investigation Report, which was requested by the Office
of Environment, Safety and Health, clearly highlights this
point:

     lThe report does not adequately discuss the role of
     oversight in the accident. The oversight
     responsibilities of Brookhaven National Laboratory
     (BNL), Brookhaven Area Office (BHO), DOE Headquarterms
     [sic] Office of Energy Research (ER) and Office of
     Nuclear Energy (NE) are presented briefly in the facts
     section. The analysis section, however, fails to
     explore the management systems that held
     responsibility for the program. The judgment of needs
     does not reference the organizations that should
     implement related corrective actions. As a
     consequence, any deficiencies that may exist in the
     assignment or exercise of oversight responsibilities
     may not be recognized and corrected. [Emphasis
     added.]n

Further, a separate report of the accident was prepared by BNL
personnel in accordance with DOE Order 5000.3B, lOCCURRENCE
REPORTING AND PROCESSING OF OPERATIONS INFORMATION.n This
report identified different, more lupstreamn management systems
as a root cause than did the CH accident investigation Board
report. This Occurrence Report stated:

     lRoot Cause (Management; Policy Not Adequately
     Defined/Disseminated/ Enforced)

     lManagement failed to adequately disseminate and
     enforce the responsibility and authority interface
     between the TRISTAN Experiment Group and the Reactor
     Division.n

Additionally, we interviewed a senior Office of Nuclear Energy
(NE, now the Office of Nuclear Energy, Science and Technology)
official who told us that he is the DOE official in charge of
Energy Research reactors, including the BNL High Flux Beam
Reactor (HFBR) . He said that he accepted responsibility for
the accident. He also said that the actual root cause of the
TRISTAN fire was the lack of control by BNL Reactor Division
management. We believe that the root cause identified by this
official was not inconsistent with the root cause identified in
the BNL Occurrence Report discussed above.

     Applicable Regulations and Procedures and the TRISTAN
     Hazard Category

In order to identify the assignment of oversight responsibility,
the identification of the existing regulations and procedures
that were applicable to the accident is an important part of
root cause analysis. The A/I Manual and the draft DOE Accident
Investigation Report Writing document provide guidance on the
need to identify existing regulations and procedures applicable
to the accident and the need to report whether the applicable
procedures were followed. Also, the CH Manager told us that she
expected the investigation to determine whether the requirements
of all applicable DOE orders had been met.

The Board Chairman, however, said he did not identify specific
procedures that would have required a comprehensive safety
review commensurate with the hazards for TRISTAN. Also, the CH
Manager, in a September 13, 1995, memorandum to the Headquarters
Employee Concerns Officer regarding the former Board memberms
concerns, stated that l. . . reviews of DOE Orders, Brookhaven
Safety Procedures, and the HFBR Technical Specification in
question have identified no violations of these requirements.n
The lack of a requirement for such a comprehensive safety
review, if true, would have been a significant need that, in our
view, should have been recognized by the Board and addressed in
their report.

It is not clear to us, however, that there wasnmt an order or
regulation that would have required a comprehensive safety
review. The former Board member, consistent with the area
assigned to him as a member of the Board, sought to identify
orders that were relevant to the accident. He suggested on more
than one occasion the possibility that the TRISTAN experiment
itself was a lclass 3n [Category 3 Hazard] nuclear facility
under DOE Order 5480.23, lNUCLEAR SAFETY ANALYSIS REPORTS,n and
thus should have been subject to a Category 3 Hazard safety
analysis and other requirements. Although identifying
applicable regulations and procedures and the applicable hazard
category designation was very relevant, focusing only on whether
TRISTAN should have been classified as a Category 3 Hazard
nuclear facility may not, in our view, have been appropriate.
We were told that there had not been a segmentation study, as
currently described in DOE STD 1027-92, lHAZARD CATEGORIZATION
AND ACCIDENT ANALYSIS TECHNIQUES FOR COMPLIANCE WITH DOE ORDER
5480.23, NUCLEAR SAFETY ANALYSIS REPORTS,n to separate TRISTAN
from the Category 1 Hazard safety analysis requirements of the
HFBR to which TRISTAN was attached. TRISTAN, therefore, was
subject, as part of the HFBR, to the safety analysis
requirements of a Category 1 Hazard nuclear facility found in
DOE Order 5480.23, dated April 10, 1992. We were told that the
requirements for a Category 1 Hazard nuclear facility safety
analysis under that Order are at least as rigorous as the
requirements for a Category 3 Hazard nuclear facility. Further,
the applicability of safety analysis requirements over the life
of TRISTAN could have been researched. For example, at the time
the 1991 update to the HFBR Safety Analysis Report (SAR) was
developed, it appears that the requirements for a safety
analysis found in the then DOE Order 5480.5, lSAFETY OF NUCLEAR
FACILITIES,n would have applied.

Even if these nuclear safety orders did not apply, we have been
told that DOE Order 5481.1B, lSAFETY ANALYSIS AND REVIEW
SYSTEM,n dated September 23, 1986, would have applied to the
TRISTAN experiment. This Order requires a safety analysis for
DOE operations that linvolve hazards that are not routinely
encountered and accepted in the course of everyday living by the
vast majority of the general public.n Safety analyses under
this Order shall lDemonstrate that there is a reasonable
assurance that the DOE operation can be conducted in a manner
that will limit risks to the health and safety of the public and
employees, and adequately protect the environment.n

     Possible Causes of the Inadequate Investigation of
     Management Systems

We identified several possible causes for the lack of direction
to the Board and a reluctance by Board members to identify
specific management systems and organizations as a root cause in
the accident investigation report. We believe that the Board
Chairmanms and the Board membersm limited experience and
training in accident investigation, and thus root cause
analysis, may have contributed to the Board conducting an
accident investigation that did not adequately address specific
management systems and organizations. Further, we found the
Board members did not believe they should be critical of
management in their investigation. The Board Chairman and
several Board members, including the one member experienced in
accident investigations, believed that the accident
investigation report should not identify or name specific
management organizations because this would be inappropriately
laying blame or finding fault.
We also found evidence that we believe indicates that this
Boardms reluctance to adequately investigate management systems
as a root cause may not be an isolated case. This may be a more
general problem with DOE accident investigations and, in
particular, those conducted by field components. For example,
we interviewed EH Headquarters and PNL officials that were
involved in the review of investigation reports in accordance
with DOE Order 5484.1. According to these officials, past
investigation reports did not go far enough in the examination
of management systems. Additionally, we looked at reviews
requested or conducted by EH of two previous accident
investigation reports. These reviews included observations that
the reports failed to adequately review management systems.
Also, DOE's draft guide for preparation of accident reports
stated that evaluation of past accident investigation reports
identified concerns regarding the failure to properly assess
root causes and the failure to evaluate management systems that
allowed the accident to occur.

Based on the evidence we have reviewed, we did not conclude that
a lack of management integrity played any role in the
deficiencies in the accident investigation regarding root cause
analysis. That is, we did not conclude that senior managers, as
alleged, consciously, i.e., knowingly and willfully, violated
the provisions of DOE Order 5484.1. The discussion above has
addressed what we believe are the possible causes of the
deficiencies in the accident investigation regarding root cause
analysis of management systems.
Need for Analysis of Management Systems

As of October 1995, during our field work, we did not find
evidence that a thorough root cause analysis of the role of
management systems in the TRISTAN accident had been conducted.

Pursuant to the requirement of DOE Order 5484.1 that EH review
the TRISTAN accident investigation report for thoroughness,
objectivity, and independence, the Assistant Secretary for
Environment, Safety and Health provided comments on the
investigation report to the CH Manager in a March 24, 1995,
memorandum. The EH Assistant Secretary commented that the
report lcould be enhancedn by several actions, including an
evaluation of the effectiveness of the roles and
responsibilities of line management organizations such as CH,
NE, and the Office of Energy Research. She posed the question:
lWhat, if any, actions should they have taken or should they now
take to preclude a recurrence of the accident. [Emphasis
added.]n In an attachment to her May 22, 1995, response to the
Assistant Secretary, the CH Manager stated the following:

     lWe note your comment and agree that the investigation
     should have included a written evaluation of the roles
     and responsibilities of the Department of Energyms
     (DOEms) line management in addition to the
     contractorms. We will assure all future accident
     investigations conducted by the Chicago Operations
     Office (CH) include a written evaluation of the
     effectiveness of DOE and involved contractors.
     [Emphasis added.]n

CH, therefore, did not state, in response to the March 24, 1995,
EH memorandum, that they planned to enhance the TRISTAN
investigation report by reviewing the roles and responsibilities
of line management and determining what actions the line
organizations should have taken. A CH official who drafted the
response initially told us that he believed that the actions
that they reported in the response to EH addressed the issue of
what actions line management organizations should have taken.
However, he acknowledged in response to our questions, and upon
reflection, that this issue regarding what actions line
management organizations should have taken had not been
addressed by CH.

Had CH, in response to the March 24, 1995, EH memorandum,
analyzed the roles and responsibilities of line organizations in
the TRISTAN accident, to include what management systems should
have or could have prevented the accident, we believe that that
analysis would have identified additional possible oversight
issues. Even our limited search, for example, for requirements
and responsibilities that should have resulted in a
comprehensive safety review of TRISTAN identified what we
believe are possible management oversight issues.

In our limited review of safety analysis requirements for
TRISTAN, we tried to determine what the status was of the HFBR
Safety Analysis Report (SAR) upgrade at the time of the TRISTAN
fire. We did this because it appeared to us that a
comprehensive safety analysis of TRISTAN should have been
required as part of the HFBR SAR. As a result of these
inquiries, we found deficiencies in the more recent coordination
among oversight organizations regarding the processing of the
proposed BNL plan to develop an upgraded HFBR SAR, which is
required by DOE Order 5480.23.

DOE Order 5480.23, dated April 10, 1992, requires the HFBR to
have either an upgraded SAR in accordance with the new
provisions of the Order or to have submitted for approval a SAR
plan and schedule (SAR upgrade plan) to develop an upgraded SAR.
In a memorandum responding to the initial draft of this report,
the CH Manager stated that the HFBR has operated under a DOE
approved SAR since 1965. According to a senior NE official, the
most recent approved HFBR SAR update was dated March 5, 1991.
However, as of September 1995, at the time of our inquiry, the
HFBR did not have an upgraded SAR and the BNL Reactor Division
(RD) Manager did not believe BNL had an approved SAR upgrade
plan.

BNL had submitted a proposed SAR upgrade plan in 1992 that
closely followed the content guidelines of DOE Order 5480.23,
but it was not approved by DOE due to the projected cost. BNL
submitted a modified proposed SAR upgrade plan in September
1994. This modified proposed SAR upgrade plan included a
provision, in response to guidance from NE and BHO, to develop a
comparison matrix as a first step toward an upgraded SAR. This
comparison matrix, which would take eighteen months for BNL to
develop, would determine what new safety analysis requirements
established in the 1992 DOE Order 5480.23 are not addressed in
the HFBRms most recent SAR update approved in 1991 and other
related BNL documentation. For example, we were told by a
senior NE official that it is not certain that all the
provisions of DOE Order 5480.23 (he noted decontamination and
decommissioning) were covered by the 1991 HFBR SAR update and
other BNL safety documentation. The September 1994 proposed SAR
upgrade plan stated that work on the comparison matrix would
begin when the plan was approved.

When we sought to determine the status of the proposed SAR
upgrade plan for the HFBR, we found deficiencies in coordination
among oversight organizations and staff regarding the processing
of the proposed SAR upgrade plan. For example, we found that a
senior NE official believed that he had put the proposed SAR
upgrade plan lon holdn because he believed that developing a
comparison matrix would be too expensive and time consuming.
This senior NE officialms staff had given guidance to BNL to
submit the 1994 proposed SAR upgrade plan, to include the
comparison matrix. An NE official with the action
responsibility for the NE review of the proposed SAR upgrade
plan believed that the plan was lpending NE approval,n but did
not know why it had not been approved. BNL officials, however,
had received verbal approval from BHO to proceed with developing
the comparison matrix and BNL had drafted and submitted over one
half of the draft chapters in the comparison matrix to BHO. BHO
had not forwarded the draft chapters to CH or NE because the
proposed SAR upgrade plan had not been approved by NE.

It was not the purpose of our inspection to review how the HFBR
safety analysis upgrade was being processed. We have, by this
discussion, tried to give an example of one possible management
oversight issue that might have been identified by a root cause
analysis of management systems in the TRISTAN accident.

In comments on a draft of this report, NE informed us that the
proposed SAR upgrade plan was approved on November 3, 1995.

Failure to Recognize Valid Concerns

Our conclusions support that the former Board member had a valid
concern that the Board was not going to adequately investigate
and report on specific management systems and organizations as a
root cause. Until the EH memorandum to CH in March 1995,
however, we found no evidence that DOE recognized the validity
of this concern. This failure to recognize the validity of the
former Board memberms concern may still have been an issue in
September 1995. In a September 13, 1995, memorandum to the
Headquarters Employee Concerns Officer regarding the former
Board memberms concerns, CH stated the following:

     l. . . reviews were conducted by Brookhaven National
     Laboratory (BNL), CH, the Office of Environment,
     Safety and Health (EH), and the Office of Nuclear
     Energy (NE). These organizations agree with the
     Investigation Boardms root cause determination.n
As we briefly discussed earlier, we do not believe that EH
agreed that the investigationms stated root cause was adequate.
Also, as briefly discussed earlier, BNL and NE had identified
different, more lupstreamn root causes than the Board had
identified.

The former Board memberms valid concerns may have had more
timely recognition under the processes envisioned in the
Secretaryms new initiative to ensure appropriate review of
employee concerns. Accordingly, we believe that it is important
that the Secretaryms initiative for an enhanced DOE employee
concerns management program announced in August 1995 be
implemented as quickly as possible. We understand that
responsibility for this program has been assigned to the Office
of Economic Impact and Diversity and that the appointment of a
manager is in process.



RECOMMENDATIONS

DOE Order 225.1, lACCIDENT INVESTIGATIONS,n was published on
September 29, 1995. This directive replaced the provisions of
DOE Order 5484.1 regarding the responsibilities of DOE Federal
employees in the conduct of accident investigations. Therefore,
our recommendations are directed to DOE Order 225.1.

We recommend that the Assistant Secretary for Environment,
Safety and Health:

1.     Require that a briefing or other communication is provided
     to all Type A and B accident investigation boards at the
     beginning of each accident investigation. The briefing or
     communication should emphasize that the board is empowered to
     examine management systems and organizations as a root cause
     and that the board is expected to do so and to fully report
     its findings. This briefing or communication should also
     instruct Type A and B accident investigation boards that they
     have the authority to investigate up to and beyond the level
     of the appointing official when looking at specific management
     systems and organizations.

2.     Consider changes to DOE Order 225.1, lACCIDENT
     INVESTIGATIONS,n dated September 29, 1995, regarding the
     training and experience of board chairpersons and members.
     Possible changes could be requiring training for the
     chairperson, requiring that more than one member have
     training, or provide guidance on the specific roles and
     responsibilities of the trained accident investigators during
     an accident investigation.

3.     Revise DOE Order 225.1, lACCIDENT INVESTIGATIONS,n dated
     September 29, 1995, to more specifically define specific
     management systems and more clearly state the requirement to
     review and report on specific management systems and
     organizations as a root cause.
4.     Modify the lGUIDE TO DOE ACCIDENT INVESTIGATION REPORT
     WRITINGn to clarify that the statement concerning the
     intention of the report not to lay blame does not mean that a
     root cause including specific management systems and
     organizations should not be identified.

5.     Modify the lGUIDE TO DOE ACCIDENT INVESTIGATION REPORT
     WRITINGn to include a management systems subsection in the
     Analysis Section of the report outline.

6.     Modify the Accident/Incident Investigation Manual to provide
     a consolidated discussion of the responsibilities of the board
     to identify specific management systems, to include management
     organizations, as a root cause.

7.     Review how EH can provide accident investigation boards with
     policy analysis support in identifying what line organizations
     should have done to prevent the accident. In particular,
     consider how a board can be supported in identifying DOE
     orders that assign oversight responsibilities, relevant to the
     accident, to line organizations. Based on the results of this
     review, establish a mechanism to provide appropriate support.

8.     Review the assignment and exercise of oversight
     responsibilities regarding the actions of NE, EH, CH, and BHO
     in processing the HFBR proposed SAR upgrade plan. Identify
     and disseminate any lessons learned to other appropriate
     Program Secretarial Officers. Take appropriate corrective
     actions regarding identified management deficiencies.

                            9. For the Annual Department of Energy
     Environment, Safety and Health Conference, include a session
     for managers on the conduct and objectives of accident
     investigations, including the requirement for an analysis of
     management systems and organizations as a root cause of the
     accident.

We recommend that the Director, Office of Economic Impact and
Diversity:

10. Review how the former Board memberms concerns were handled
   by DOE organizations and officials and determine if lessons
   can be learned on how to better identify and respond to
   concerns of employees.

11. Based on the results of this review, consider developing
   additional guidelines and procedures to reinforce the
   Secretaryms policy on openness to receiving and reviewing
   employee concerns.

12. Expedite the appointment of a manager for the Employee
   Concerns Oversight Office and ensure the program is
   implemented as soon as possible.

We recommend that the Director, Office of Nuclear Energy,
Science and Technology:
13. Based on the statement by a senior NE official that NE had a
   causal role in the TRISTAN accident, identify the
   Headquarters management procedures that allowed the accident
   to occur and identify corrective actions necessary to ensure
   that similar problems do not recur at DOE nuclear reactors
   under NE management.

14. Review the processing of the HFBR proposed SAR upgrade plan
   to identify management deficiencies and take necessary
   actions to correct management systems that allowed these
   deficiencies to occur.



We recommend that the Manager, Chicago Operations Office:

15. Ensure that accident investigation boards for future
   accident investigations understand their responsibility in
   investigating and reporting management systems as a root
   cause.

16. Conduct a root cause analysis and report on the roles of
   specific management systems and organizations in the TRISTAN
   accident and what actions management should have taken that
   might have prevented the accident.

17. Review the assignment and exercise of oversight
   responsibility by CH and BHO regarding the HFBR proposed SAR
   upgrade plan.
MANAGEMENT COMMENTS

By memorandum dated March 5, 1996, the Office of Environment,
Safety and Health (EH) provided comments signed by the Deputy
Assistant Secretary, Office of Oversight, on our official draft
report. He said that a reevaluation of the Accident
Investigation Program by the Office of Oversight concluded that
there was a need for a significant change. He said that, as a
result, the program was transferred from the EH Residents to the
Office of Security Evaluations on December 26, 1995. He said
that EH is currently reviewing all aspects of the program and
focusing on developing better and more cost-effective approaches
for accomplishing program goals. He said that, in particular,
EH sees a need for improvements in training, follow-up
activities, and guidance to the field. He said that EH agrees
with the basic premise behind the nine recommendations for EH;
however, in some cases EH has developed alternatives to the
prescriptive solutions suggested.

Regarding Recommendation 1, the Deputy Assistant Secretary said
that EH agrees with the recommendation and proposed to take the
following actions to assure that each Type A and B accident
investigation board fully understands their roles and
responsibilities, authorities, and obligations to examine all
levels of both DOE and contractor organizations and management
systems as they relate to the accident.
(1) By April 30, 1996, DOE Order 225.1 will be revised and
reissued. The revision will incorporate the issues identified
in the recommendations and summarized above. Specifically, the
Order will be revised to clarify and further define the
responsibility of each Type A or B accident investigation board
in gathering facts, performing root cause analysis, developing
findings, probable causes and judgments of needs with respect to
organizations and management systems that could have or should
have prevented the accident being investigated.

(2) By April 30, 1996, EH will issue a bulletin to the Heads of
all Field Elements that will reconfirm all field accident
investigation points of contact (POCs). Additionally, the
bulletin will require that all type A and B accident
investigation boards be provided a briefing within 3 days of
their appointment. Briefing material that outlines the issues
identified in the recommendations above will be included with
the bulletin. The bulletin will serve as an interim measure to
quickly provide needed guidance while the program is being
refocused and permanent program documents are being revised.

We believe that EHms planned actions are responsive to our
recommendation.

Regarding Recommendation 2, the Deputy Assistant Secretary said
that EH agrees with the intent of this recommendation and
proposed taking the following actions to assure that future
accident investigation board chairpersons and members fully
understand the DOE accident investigation process.

(1) The Office of Security Evaluations (SE), which now has
responsibility within the Office of Oversight for the Accident
Investigation Program, has already taken some interim measures
and plans additional measures to address this issue. For
example, the two most recent Type A investigation boards were
led by formally trained EH chairpersons and were comprised of
carefully selected EH and field staff. The newly appointed
Program Manager is taking an active role by not only identifying
and implementing needed program revisions, but also, more
immediately, by personally providing guidance and assistance to
current investigation boards. The bulletin described in the
reply to Recommendation 1 above will address such issues as
roles and responsibilities of board members and investigators.
EH is currently scoping and identifying or developing new
training for board members and chairpersons that will likely
include provision of written materials, availability of
information over the Internet, periodic workshops, and formal
courses, and may also result in qualification standards for
board members. Formal training is planned in September and
October 1996 for a core group of Chairpersons from EH and for
field-appointed POCs and potential Chairpersons and board
members.

(2) DOE Order 225.1, which applies to all DOE elements, will be
revised and reissued by April 30, 1996, as explained in the
response to Recommendation 1 above.
We believe that EHms planned actions are responsive to our
recommendation.

Regarding Recommendation 3, the Deputy Assistant Secretary said
that EH agrees with this recommendation and proposed taking the
following actions to more specifically define management systems
and more clearly state the requirement to review and report on
specific management systems and organizations as probable causes
of accidents.

(1) The revision of DOE Order 225.1 will include appropriate
definitions, including specific definitions of management
systems, as well as the requirement to review those systems as
appropriate. The Office of Oversight has developed a template
for safety management based on the DOEms Five Guiding Principles
for Safety Management. The template, as well as the guiding
principles, will be referenced in the order as appropriate.

(2) By July 28, 1996, the Draft Implementation Guide (DOE G-
225.1) for DOE Order 225.1 will be revised to reflect the
concerns stated above and will be distributed throughout the
Department.

We believe that EHms planned actions are responsive to our
recommendation.

Regarding Recommendation 4, the Deputy Assistant Secretary said
EH agrees with the concept of Recommendation 4 and proposed
taking the following action to assure that accident
investigation board chairpersons and members understand that
they can identify organizational and management system
deficiencies and probable causes of an accident without
assigning blame to a particular individual.

(1) By July 28, 1996, the Draft Implementation Guide (DOE G-
225.1) will be revised to include the concerns stated above and
will be distributed throughout the Department. Expanding the
scope of the Implementation Guide by incorporating report
writing guidance is in line with EHms ongoing efforts at
paperwork reduction and EHms plans to streamline and consolidate
program guidance.

We believe that EHms planned actions are responsive to our
recommendation.

Regarding Recommendation 5, the Deputy Assistant Secretary said
that EH agrees with the concept of Recommendation 5 and proposed
taking the following actions to assure that future Type A and B
accident investigation reports contain management sub sections
in the report outline.

(1) By July 28, 1996, the Draft Implementation Guide (DOE G-
225.1) will be revised to include information on a standardized
format and process for writing accident investigation reports.
The format will include management system subsections in the
Facts, Analysis, Findings, Probable Cause, and Judgment sections
of the report. Again, including report writing guidance in the
Implementation Guide supports EHms ongoing efforts at paperwork
reduction and EHms plans to streamline and consolidate program
guidance.

(2) The bulletin described in the response to Recommendation 1
above will provide similar information as an interim measure.

We believe that EHms planned actions are responsive to our
recommendation.

Regarding Recommendation 6, the Deputy Assistant Secretary said
that EH agrees with this recommendation and proposed taking the
following actions to assure that future accident investigation
board chairpersons and members fully understand their
responsibilities with respect to identifying and analyzing
specific management systems and organizations to determine their
possible contributions to the accident being investigated.

(1) By July 28, 1996, the Accident/Incident Investigation
Manual will be revised to reflect the issues discussed above.

(2) The bulletin described in the response to Recommendation 1
above will also address this issue as an interim measure.

We believe that EHms planned actions are responsive to our
recommendation.

Regarding Recommendation 7, the Deputy Assistant Secretary said
EH agrees with the intent of this recommendation and proposed
the following actions to assure that necessary subject matter
experts are either members of the accident investigation board
or advisors to the board.

(1) By April 30, 1996, the planned revision to DOE Order 225.1
will attack this problem more generally by providing a better
definition of the skills required by board members. This
includes knowledge of applicable DOE requirements and DOE
policies. Subsequent to the written comments, an official of
the Office of Oversight clarified EHms response. This official
told us that EH policy subject matter experts will be made
available to accident investigation boards to assist in any
policy clarification requirements.

We believe that EHms reply is responsive to our recommendation.

Regarding Recommendation 8, the Deputy Assistant Secretary said
that EH agrees with this recommendation and action has already
been taken to address this issue. EH-22 is conducting a follow-
up review of the TRISTAN accident to determine the effectiveness
of BNL, CH, and NEms corrective actions. The on-site review was
completed February 29, 1996, and a DOE Headquarters review and
analysis is currently under way. Upon completion of the review
and analysis, a report will be published and lessons learned
communicated across the Department. Subsequent to the written
comments, an official of the Office of Oversight clarified EHms
response. This official told us that the TRISTAN accident
followup review report will be completed by April 15, 1996.
We believe that EHms planned actions are responsive to our
recommendation.

Regarding Recommendation 9, the Deputy Assistant Secretary said
that EH agrees with this recommendation and proposed the
following actions to assure that clarifications and revisions
being made to the DOE accident investigation process are
effectively communicated across the Department.

(1) Establish an agenda item on the revised accident
investigation process at the Annual Department of Energy
Environment, Safety and Health Conference.

(2) Assure that the presentation at the conference adequately
reflects the requirement for analysis of management systems and
organizations as a probable or root cause of the accident being
investigated.

We believe that EHms planned actions are responsive to our
recommendation.

By memorandum dated December 29, 1995, the Director, Office of
Economic Impact and Diversity (ED), provided comments regarding
our initial draft report. She said that the concerns raised by
the former Board member could fall within the purview of the
Employee Concerns program. She said that the responsibility for
the program was recently transferred to the Office of Economic
Impact and Diversity.

Regarding Recommendation 10, the Director said that ED is
currently in the process of establishing a formal Employee
Concerns program. She said that she has appointed two ED staff
members to head a task force of individuals who will undertake
this effort. She said that these members will consult with the
previous Headquarters Employee Concerns Manager, as well as
field managers and other subject matter experts, in order to
create a process which is responsive, effective and efficient.
She said that in formulating a program, the task force will
study the handling of the former Board memberms case to ensure
that appropriate safeguards and procedures are built into the
process to address the concerns which that case raises.
Subsequent to the written comments, an ED official told us that
they will implement this recommendation within 60 calendar days
from the date of issuance of this report.

We believe that EDms planned actions are responsive to our
recommendation.

Regarding Recommendation 11, the Director said that in its
report to her, the task
force will recommend guidelines and procedures for reinforcing
the Secretaryms policy on openness to employee concerns.
Subsequent to the written comments, an ED official told us that
they will implement this recommendation within 90 calendar days
following their implementation of Recommendation 10.
We believe that EDms reply is responsive to our recommendation.

Regarding Recommendation 12, the Director said that following
receipt of the task force report, she anticipates appointing an
Employee Concerns Manager to oversee the program. She also said
that she regrets that progress in this effort will be hampered
by the lack of FTEs (Full Time Equivalents) and funding
associated with the Employee Concerns program. She said that
when funding does come available, she will move swiftly to
ensure that the program is fully implemented and operational.
She said that she will keep the Office of Inspector General
apprised of the status of her efforts. She said that, in the
interim, her Office will accept all matters relating to employee
concerns which are brought to its attention and will process
them in the most appropriate manner .

By memorandum dated February 27, 1996, the ED Director provided
additional comments regarding our official draft report
concerning Recommendation 12. She said lPlease be assured that
our previous comments were not intended to indicate that the
Employee Concerns function would be ksidelinedm pending
reassignment of funding and/or FTEms.n She said that
significant actions have already been taken with respect to the
program. She said that members of the Directorms staff have
begun to review the current program, and to consult with
stakeholders regarding potential restructuring. She said that,
in addition, a notice is currently being drafted to inform DOE
employees that the Employee Concerns function now resides within
ED. Subsequent to the written comments, the Acting Deputy
Director for Civil Rights and Diversity told us that he has been
designated as the Acting Employee Concerns Manager.

We believe that EDms planned actions are responsive to our
recommendation.

By memorandum dated March 7, 1996, the Deputy Director, Office
of Nuclear Energy, Science and Technology (NE), provided
comments on our official draft report.

Regarding Recommendation 13, the Deputy Director said that after
the TRISTAN event, NE examined existing controls at its reactors
for experiment safety review. He said that, as part of NEms
review, the technical safety requirements for each reactor
facility were reviewed to confirm that they include adequate
requirements to institutionalize the experiment review process.
He said that the HFBR and the High Flux Isotope Reactor (HFIR)
have both incore experiments and beam tube experiments external
to the core. He said that the beam tube experiment safety
review process at the HFIR was reviewed and determined to be
acceptable. He said that as part of the corrective action plan
for the TRISTAN event, an extensive safety review of all beam
tube experiments at HFBR was conducted by a multi-discipline
team that included reactor operation personnel. He said that,
additionally, the HFBR technical safety requirements were
revised to require that a documented multi-discipline review of
beam tube experiments be performed on new experiments and on all
experiments on a biennial frequency. He said that to ensure
lessons from the TRISTAN event were shared with NE facilities
and the DOE complex, a lessons learned workshop was conducted at
BNL on September 22, 1994. He said that NE will conduct
followup reviews of BNL and the Oak Ridge National Laboratory
(ORNL) beam tube experiment safety review processes. He said
that, additionally, review of the contractor experimental review
process will be made a mandatory part of the facility
representative assessment program. The Deputy Director provided
the following milestone and completion dates:

     Milestone Description                 Completion: Actual
(A)/Scheduled (S)

Identify the management procedures that
allowed the TRISTAN accident to occur.                    05/24/94
(A)

Conduct a lessons learned workshop on the
TRISTAN event for other NE facilities and
the DOE complex.                                     09/22/94 (A)

Examine existing controls for experiment
safety review.                                  09/30/94 (A)

Conduct an extensive safety review of all
beam tube experiments at HFBR.                            12/30/94
(A)

Revise BNL procedures for performing
beam tube safety reviews.                                 11/21/95
(A)

Include the review of the contractor
experimental review process as a mandatory
part of the facility representative assessment
program at NE facilities.                                 04/26/96
(S)

Conduct followup reviews of BNL and
ORNL beam tube experiment safety review
processes.                                           05/17/96 (S)

We believe that NEms planned actions are responsive to our
recommendation.

Regarding Recommendation 14, the Deputy Director said that the
proposed SAR upgrade plan was deliberately deferred. He said
that an interim response to CH would have clarified this
position; however, no such response was issued. He said that
the plan was not approved until November 3, 1995, due to the
Deputy Directorms concerns with ensuring a cost-effective
approach to meeting the requirements of the SAR Order 5480.23,
particularly in light of other initiatives that were being
considered in that timeframe. He said that these included the
Necessary and Sufficient Review Process and the SAI -15 review
of cost-efficient operation and degree of oversight requirements
for DOE test and research reactors. He said that in the future,
under similar circumstances, an interim response will be issued.

We believe that NEms reply is responsive to our recommendation.

In a letter dated December 9, 1995, the Manager, Chicago
Operations Office, provided comments regarding our initial draft
report. She said that she believed that our investigation was
conducted in an extremely professional, thorough, and competent
fashion. She said that she believed that our report reflects
the evenhanded methods used to present the results of the
investigation. She said that the recommendations made in our
report are appropriate and that she accepts the recommendations
made for the Chicago Operations Office.

Regarding Recommendation 15, the Manager said that the CH
procedures for carrying out accident investigations will be
reviewed to assure that appropriate guidance is included to
assure that future boards investigate and report upon the
management systems as part of the root cause analysis. A CH
official subsequently told us that these actions would be
completed by April 15, 1996.

We believe that CHms planned actions are responsive to our
recommendation.

Regarding Recommendation 16, the Manager said that a Root Cause
Analysis Team will be established. She said that this team will
use the information found in the accident investigation report
and files as a baseline from which to start this analysis. She
said that the team will complete the root cause analysis to
determine what actions management should have taken to prevent
the accident. A CH official subsequently told us that these
actions would be completed by March 15, 1996.

We believe that CHms planned actions are responsive to our
recommendation.

Regarding Recommendation 17, the Manager said that CH will
review the assignment and exercise of oversight responsibility
regarding the HFBR proposed SAR upgrade plan. She said that
this review will be focused on all members of the team to assure
that all responsibilities are thoroughly understood. She said
that in areas where shortfalls are found, appropriate corrective
actions will be recommended. She said that the corrective
actions will be tracked in the CH management action tracking
system. A CH official subsequently told us that these actions
would be completed by May 1, 1996.

We believe that CHms planned actions are responsive to our
recommendation.

                            APPENDIX A


                SELECTED CRITERIA REGARDING SCOPE

DOE orders and supporting documents established criteria for
developing the scope statement for accident investigations.
They also provided guidance on conduct of accident
investigations with respect to the role of management systems in
failure to prevent the accident.

DOE Order 5484.1, lENVIRONMENTAL PROTECTION, SAFETY, AND HEALTH
PROTECTION INFORMATION REPORTING REQUIREMENTS,n dated February
24, 1981, with changes one through seven, was applicable to all
Departmental contractor operations where the Department has
established control over environmental protection, safety, and
health program content. Chapter II, paragraph 2.b.(2) of this
Order provided criteria for the development of a scope statement
for Type A and B investigations and stated:

     l(c) Scope of Investigation. This statement shall set
        forth the issues or objectives to be investigated
        and any special limitations or instructions to the
        board.n

This Order also provided criteria for the completion of the
investigation report with respect to management systems.
Chapter II, paragraph 2.b.(1) of this Order stated:

     l(b) The investigation report shall fully cover and
        explain the technical elements of the causal
        sequences of the occurrence and shall also describe
        the management systems which should have, or could
        have, prevented the occurrence, e.g., the hazard
        review system and the quality assurance program for
        safety, including the monitoring of actual
        operations.n

DOE Order 5484.1 also referenced the lAccident/Incident
Investigation Manual, DOE ISSDC 76-45/27n (A/I Manual). Page
31, Figure 15 of this manual, lTYPICAL LETTER OF APPOINTMENT-
TYPE A OR B ACCIDENT INVESTIGATIONn included the following
example of a scope statement:

     lYour investigation is to be conducted in accordance
     with DOE Order 5484.1, and the report is to be
     submitted to me by (Date). The report should fully
     explain the technical elements of the causal sequence
     and describe the management systems which should have,
     or could have prevented the occurrence. Appropriate
     recommendations for the improvement of the management
     systems will be required. The DOE
     Accident/Investigation Manual is to be used for
     guidance in conducting the investigation and preparing
     the report.n
The A/I Manual provided additional guidance on the development
of an investigation scope. Page 25, Chapter III of this manual
stated:

     l3.     . . . Generally, the scope should be defined
           broadly enough to include the upstream processes
           which produced the accident situation and the
           management system which should have controlled it.
           It should also be limited enough to be manageable
           by the appointed board.n

Chapter IV, page 47 of this manual stated:

     l6.     Were there pertinent codes, standards, and
           regulations applicable to this work? Was a safety
           procedure required? Were job instructions
           prepared? Were they followed? If not, why not?n

The A/I Manual also provided guidance on the completion of an
accident investigation with respect to management systems in
Chapter IV, page 99, and stated:

     lDeficiencies can exist anywhere in the organization
     and are as common at the management levels as at the
     first line operating or worker level. In fact,
     deficiencies at lower organizational levels almost
     always mirror similar defective performances at higher
     levels. So, when accidents, incidents, and losses
     occur, the investigator should use MORT [Management
     Oversight and Risk Tree] analysis to look beyond the
     errors and failures which immediately precipitated
     them. The investigator must identify system
     deficiencies at both the worker and management levels
     to determine the underlying oversights, omissions,
     performance errors, and accepted risks which are the
     root causes.n

The MORT Tree depicts the unacceptable losses, and the
oversights and omissions and the assumed or accepted risks which
lead to them. It also shows the dual nature of accidental loss
development: (a) the less than adequate (LTA) specific control
factors which identify what happened, and (b) the ever-present
management systems factors which identify why it happened.
Factors which are listed as part of management systems, as
stated in the MORT Tree chart, include:

     lLine Responsibility LTA
     Staff Responsibility LTA
     Management Services LTA
     Accountability LTA
     Vigor and Example LTAn

DOE Guideline DOE-NE-STD-1004-92, lROOT CAUSE ANALYSIS GUIDANCE
DOCUMENT,n dated February 1992, stated in Chapter 2, page 3,
that:

     lRoot Cause. The cause that, if corrected, would
     prevent recurrence of this and similar occurrences.
     The root cause does not apply to this occurrence only,
     but has generic implications to a broad group of
     possible occurrences, and it is the most fundamental
     aspect of the cause that can logically be identified
     and corrected. There may be a series of causes that
     can be identified, one leading to another. This
     series should be pursued until the fundamental,
     correctable cause has been identified.n

The draft DOE Accident Investigation Report Writing document,
dated February 1993, stated on page 7:

     l10. . . . Discuss inadequacies in the management
        system that allowed performance discrepancies by
        those doing the work. kManagement Systemm in this
        context is broad and included inadequacies in
        contractor, DOE Field Office, and DOE Headquarters
        management systems.n

Page 21 of this draft stated:

     lo     Do pursue root causes to an adequate level,
          contractor management, DOE Field Office, or DOE
          Headquarters, as appropriate.n

Based on the information presented above and other interviews we
conducted, a review of management systems in root cause analysis
should, in our view, include examining lupstreamn management
systems and organizations which could have or should have
prevented the accident. This review should identify specific
management systems and organizations as a root cause and the
findings of this review should be reported in the accident
investigation report.

                            APPENDIX B


              EXCERPTS FROM THE APPOINTING OFFICIALmS AND
                   BOARD CHAIRMANmS SCOPE STATEMENTS


The appointment letter for the TRISTAN Type B Investigation,
Subject: lINVESTIGATION OF OCCURRENCE AT THE HIGH FLUX BEAM
REACTOR (HFBR) BROOKHAVEN NATIONAL LABORATORY,n was signed by
the CH Manager, on April 11, 1994. The April 11, 1994,
letter stated that:

     lThe investigation and reporting are to be conducted in
     accordance with Department of Energy (DOE) Order
     5484.1 insofar as circumstances associated could have,
     prevented the occurrence; e.g., the safety or hazard
     review system, the quality assurance program for
     safety (including the monitoring of actual
     operations). Appropriate recommendations for the
     improvement of the management systems will be
     required.n

The scope statement created by the Board Chairman for the
TRISTAN Type B Accident Investigation stated:

     l. . . the TRISTAN Category B accident investigation
     will be conducted in accordance with the requirements
     of DOE Order 5484.1 Environmental Protection, Safety,
     and Health Protection Information Reporting
     Requirements.n

                      *      *   *   *   *   *     *

     1)    review the facts surrounding this occurrence

     2)    analyze these facts

     3) reach conclusions as to the root cause(s) of this
     occurrence

     4)    identify recommendations for corrective actions to
          prevent a similar occurrence in the futuren

Additionally, the Board Chairmanms scope statement required the
Board to examine:

     1)    any specific activities or events that contributed
          to the occurrence, or contributed to the severity
          of the event.

     2)    any specific systems or lack of systems (including
          technical and management) that contributed to the
          cause or severity of the event.n

IG Report No.__DOE/IG-0386____________

                          CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make
our reports as respon- sive as possible to our customers'
requirements, and therefore ask that you consider sharing
your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions
if they are applicable to you:


1.   What additional background information about the
     selection, scheduling, scope, or procedures of the
     audit or inspection would have been helpful to the
     reader in understanding this report?


2.   What additional information related to findings and
     recommendations could have been included in this report
     to assist management in implementing corrective
     actions?


3.   What format, stylistic, or organizational changes might
     have made this report's overall message more clear to
     the reader?


4.   What additional actions could the Office of Inspector
     General have taken on the issues discussed in this
     report which would have been helpful?


Please include your name and telephone number so that we may
contact you should we have any questions about your
comments.


     Name                                      Date
______________________

     Telephone                                 Organization
______________

When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may
mail it to:


          Office of Inspector General (IG-1)
          Department of Energy
          Washington, D.C. 20585
          ATTN: Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
